                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




                  This case involves possible overlapping/duplicative funding of two SBIR grants' to a
          company.2 We determined that the work described in one grant proposal overlapped substantially
          with work the company had described in an earlier grant report, and the later proposal did not
          disclose the overlap with the earlier grant. There was a very small amount of overlap of the results in
          the final report for the later grant and the results in the earlier grant's report; however, the vast
          majority of the work in the later report was new. The grantee acknowledged that the PI-who was
          no longer employed by the company and could not be located-was negligent and should have
          disclosed the overlap with the earlier grant. Because the PI is absent, and the grantee performed new
          research under the later grant, there is no colorable fraud in this case. Accordingly, this case is




NSF 01G Form 2 (1 1/02)
